IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 20-843
NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC., ET AL.,
PETITIONERS
v.
KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS SUPERINTENDENT OF
NEW YORK STATE POLICE, ET AL.
_______________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
_______________
MOTION OF THE UNITED STATES FOR LEAVE TO
PARTICIPATE IN ORAL ARGUMENT AS AMICUS CURIAE,
FOR ENLARGEMENT OF TIME FOR ORAL ARGUMENT,
AND FOR DIVIDED ARGUMENT
_______________

Pursuant to Rule 28 of the Rules of this Court, the Acting
Solicitor General, on behalf of the United States, respectfully
moves that the United States be granted leave to participate in
the oral argument in this case, that the time for oral argument be
enlarged to 65 minutes, and that the time be allotted as follows:
30 minutes for petitioners, 20 minutes for respondents, and 15
minutes for the United States. Respondents consent to this motion.
Petitioners oppose any motion that would not allocate the argument

2
time equally between lawyers advancing petitioners’ position and
those advocating respondents’ position.
This case presents the question whether New York’s denial of
petitioners’ applications for concealed-carry licenses for selfdefense violated the Second Amendment. The United States has filed
a brief as amicus curiae supporting respondents, arguing that the
denial of the applications is consistent with the Second Amendment.
The United States has a substantial interest in this case.
Congress has enacted numerous laws regulating firearms, and the
United

States

has

a

substantial

constitutionality of those laws.

interest

in

defending

the

The United States has previously

presented oral argument as an amicus curiae in two other cases
involving the Second Amendment:

New York State Rifle & Pistol

Association, Inc. v. City of New York, 140 S. Ct. 1525 (2020), and
District of Columbia v. Heller, 554 U.S. 570 (2008).

The United

States’ participation at oral argument could therefore materially
assist the Court in its consideration of this case.

Respectfully submitted.
BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record

SEPTEMBER 2021

